         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

National Nuclear Security
Administration Nuclear Weapons
Systems Configuration Management



DOE/IG-0902                                 March 2014
                                        Department of Energy
                                           Washington, DC 20585

                                                 March 26, 2014


MEMORANDUM FOR THE SECRETARY

FROM:                          Gregory H. Friedman
                               Inspector General

SUBJECT:                       INFORMATION: Audit Report on "National Nuclear Security
                               Administration Nuclear Weapons Systems Configuration
                               Management"

BACKGROUND

The National Nuclear Security Administration (NNSA) is responsible for maintaining a safe,
secure and effective nuclear deterrent through the application of science, technology, engineering
and manufacturing processes. To meet its mission, NNSA continuously assesses and evaluates
each nuclear weapon system to certify its reliability and to detect and/or anticipate any potential
problems that may occur as a result of aging. NNSA depends on information concerning how
nuclear weapons were built to certify reliability. Given its importance, such information is
controlled through a formal configuration management (CM) process.

Under the CM process, the exact "as-built" product definition 1 of a nuclear weapon is to be
established and maintained throughout its life cycle. An as-built product definition is similar to
an index, in that it contains an exact list, by version, of the drawings, specifications, engineering
authorizations, manufacturing records, and any other essential documents used in the
development and qualification of a nuclear weapon system or component.

The Office of Inspector General received multiple allegations regarding NNSA's management of
CM information. The allegations related to incomplete product definitions for NNSA nuclear
weapons, and ineffective management of classified nuclear weapons drawings, a situation that
could lead to unauthorized changes to the drawings. In response, we initiated this audit to
determine whether NNSA had maintained accurate and complete CM information for nuclear
weapons and nuclear weapons components to support safe, sound and timely decisions related to
these devices.

RESULTS OF AUDIT

Our review substantiated the allegations and identified instances in which NNSA had not
maintained accurate and complete CM information for its nuclear weapons and components. We


1
 Also known as a product acceptance definition. As used in this report, the as-built definition should identify a
serialized weapon to the specific revisions or issues of drawings that were used in the production of that weapon.
                                                  2


also identified additional concerns with the use of nuclear weapons parts and components that
did not conform to specifications. In one instance, this resulted in a significant increase in costs.
In particular:

   •   We were able to find the as-built product definitions and associated drawings for
       weapons (serialized) that had been newly refurbished by NNSA. However, we were not
       always able to find this information for the remaining weapons. Specifically, NNSA sites
       could not always locate as-built product definitions or associated drawings for nuclear
       weapons and components in its official records repositories. For example, Pantex Plant
       (Pantex) officials could not locate as-built product definitions for 14 of 36 (39 percent)
       nuclear weapons that we selected from the current stockpile for testing. In addition, of
       the 22 nuclear weapons with as-built product definitions, Pantex could not locate all the
       associated drawings for 13 weapons (59 percent). Pantex officials were concerned and
       surprised at the difficulty in finding as-built product definitions for the nuclear weapons
       and took action to determine how long it would take to develop the as-built product
       definition for three of the missing sample items. Pantex officials stated that it took an
       average of 40 hours for each serialized weapon, which means that it would take
       approximately 14 weeks to develop the as-built product definitions for all of the missing
       sample items. Further, because the original documented as-built product definition could
       not be located, we could not confirm that the product definitions developed by Pantex
       were precisely the same as the originals.

   •   Regarding nuclear weapons components, Sandia National Laboratories (SNL) officials
       responsible for neutron generator components could not locate 16 of the 36 (44 percent)
       neutron generator drawings identified in the as-built product definitions. We were not
       able to do so either as part of our audit. Additionally, SNL officials told us that they were
       uncertain whether the available information constituted a complete as-built product
       definition for the neutron generator, a key component of a nuclear weapons system.
       These drawings were for neutron generators that remained in the weapons stockpile but
       had been produced by a production site that had since closed. While most of the neutron
       generators are nearing the end of the useful life and will likely be redesigned for
       replacement, these items are still part of the current stockpile. As such, maintaining
       configuration management is still required for stockpile surveillance and other
       investigative needs.

   •   The Los Alamos National Laboratory (LANL) CM information system allowed changes
       to classified nuclear weapons drawings without using an approved change notice. This
       practice could permit unauthorized changes to weapons drawings. For example, we
       identified changes to an approved and ready for production weapon drawing that were
       not on the Final Change Order, a required document that identifies all approved changes
       to a nuclear weapon drawing. LANL officials were unable to explain why changes were
       made, but told us that they "assumed" the changes were needed. NNSA standards require
       that once a drawing has been approved and is ready for production, the drawing is "read
       only" and cannot be modified without a proper change order, in essence confirming that
       all changes to the drawings have been approved. Subsequently, NNSA officials told us
       that, in this particular case, the changes had been necessary to correct an error and that
       the final changed drawing had been approved prior to release to the production site.
                                                         3


          Although the change may have been necessary, the lack of documentation reflected a
          breakdown in controls intended to prevent unauthorized changes to weapons drawings.

      •   Sites did not always ensure that parts that did not conform to specifications were actually
          fit for use in a nuclear weapon. For example, sites had not always:

                Justified the use of parts that did not conform to design specifications nor ensured
                 that needed corrective actions to such parts were taken and were effective. Our
                 review of the authorizations to use parts that did not conform to design
                 specifications associated with the W76-1 Life Extension Program (LEP)
                 determined that 19 of 30 (63 percent) LANL authorizations we sampled did not
                 have the required technical justification to provide the assurance that the
                 component was suitable for use in a nuclear weapon. At SNL, 7 of 46 sampled
                 authorizations (15 percent) did not have the required technical justification.
                 Officials at SNL stated that they had identified problems with technical
                 justifications in 2009, and implemented corrections. In fact, our limited test work
                 did not identify technical justification problems at SNL after 2010. According to
                 SNL, actions taken since 2009 may have contributed to better performance in
                 documenting the technical justifications and corrective actions. LANL officials
                 acknowledged the identified weaknesses and stated that the process in place at the
                 time of our audit did not provide for adequate technical justification and closure
                 for nonconforming parts issues. LANL and NNSA further stated that this was an
                 NNSA-wide issue and needed to be addressed.

                Tracked implementation of corrective actions that were identified as being needed
                 to use nonconforming parts in weapons systems. According to an NNSA official,
                 it is almost impossible to know if a corrective action was verified as implemented
                 without a corrective action tracking system.

                Effectively verified that externally supplied parts and components conformed to
                 design specifications. For example, we identified two parts that did not meet
                 specifications but were inappropriately qualified for use by SNL and/or Pantex in
                 the development of the W76-1 LEP. In one case, this situation resulted in
                 component production to be delayed by 1 year and additional costs of between
                 $20 and $25 million to correct problems associated with the use of
                 nonconforming parts.

                Obtained required approvals from design agency 2 officials before using
                 nonconforming parts in nuclear weapons. Specifically, some nonconforming
                 parts require the approval of the design agency's Nuclear Explosive Safety
                 Representatives when the part is essential to preventing the inadvertent detonation
                 of a nuclear weapon. However, in our sample of 27 authorizations to use such
                 parts, we found that 4 (14 percent) did not have the required Nuclear Explosive
                 Safety Representative approvals.


2
    The design agency is the NNSA site responsible for the design of a weapon part.
                                                4


                Maintenance Priority Over Nuclear Weapons Design Information

Problems occurred in the control of nuclear weapons CM because, over the decades of nuclear
weapons development, neither NNSA nor its sites treated the maintenance of original nuclear
weapons CM information as a priority. Such information is needed to ensure that a specific
serialized weapon could be associated with its as-built product definition from cradle to grave.
Instead, NNSA focused on collecting CM information as needed, resulting in a project
management approach that was more reactive than proactive. However, during our review, an
NNSA official stated that NNSA had determined an approach to addressing the deficiencies with
the decades-old nuclear weapons CM information. Specifically, the official told us that NNSA is
now prioritizing the original as-built product definition information to ensure that the most
needed nuclear weapons data is digitized and accessible for future needs. While NNSA had
determined an approach to prioritizing and digitizing the needed CM information to be stored in
NNSA's official record repository system, the Image Management System, it had yet to
determine how it will be associated with an actual weapon or component serial number. NNSA
stated that it is developing plans to establish a system capable of associating the CM information
with a specific weapon or component serial number, but it had not yet determined exactly how
this will be accomplished.

                               Nuclear Weapons Design Changes

We also found that the risk of unauthorized changes to classified nuclear weapons drawings
existed because LANL had not limited access to the drawings as required and had circumvented
a control over changes to post-release drawings. Department of Energy Order 452.8, Control of
Nuclear Weapons Data, prohibits granting need-to-know access to nuclear weapons drawings to
entire organizations or functional groups. However, we noted that LANL had given system
access to approximately 30 nuclear weapons designers regardless of whether they were assigned
to a nuclear weapon project. LANL officials told us that they chose not to limit designer access
to nuclear weapons drawings because they believed that their internal processes were more
efficient, without raising risk issues.

In addition, NNSA requirements state that changes to released drawings can only be made with
an approved and documented change notice. However, LANL inappropriately gave all designers
system access that allowed changes to any post-release drawing without a change notice. LANL
told us that, subsequent to our review, it had begun making changes to limit designer's access to
specific projects and was evaluating additional controls to help mitigate the risk of unauthorized
changes to released drawings.

                            Nonconforming Nuclear Weapons Parts

NNSA had not ensured that the process being used for acceptance of nonconforming parts in
nuclear weapons was effective. Although NNSA procedures required formal justification for
using nonconforming parts, we found that both LANL and SNL had not always actually included
justifications on nonconformance reports. Instead, NNSA and LANL officials noted that NNSA
contractors sometimes relied on undocumented expert engineering opinions in lieu of a formally
documented technical justification for approving the use of nonconforming parts in nuclear
weapons.
                                                5


NNSA also lacked a system to track closeout of corrective actions for nonconforming parts. As
previously noted, an NNSA official acknowledged that it was almost impossible to know if a
corrective action was verified as being implemented without a tracking system. However,
NNSA policies and procedures did not require such a tracking system. The lack of a system to
document engineering opinions regarding nonconforming parts reduced the confidence that these
parts would function as intended. Further, there was no assurance that the nonconformance was
subjected to subsequent independent review and approval.

NNSA contractors had not always ensured that externally supplied parts and components met the
proper specifications in the product definition. Contrary to established requirements, NNSA
contractors had not always adequately evaluated products procured from suppliers for use in a
nuclear weapon. Notably, SNL and Pantex performed inadequate quality inspections on vendor
supplied parts to ensure that unqualified parts were not introduced into the U.S. nuclear weapons
inventory, commonly referred to as the weapons stockpile. For example, we found that SNL had
not verified that externally supplied parts and components met specifications. Pantex
subsequently determined that some of these parts and components had unacceptable deviations
and had been used or made for use in or on weapons in the stockpile.

SNL had also not taken effective action to address weaknesses in supplier management controls.
For example, our review of SNL Performance Evaluation Reports determined that while NNSA
had identified supplier quality management as an opportunity for improvement since 2005,
corrective actions were not fully effective. In particular, NNSA officials told us that SNL's
corrective actions focused on specific instances of quality issues, rather than systemic or
institutional issues. Subsequent to our fieldwork, NNSA commented that the focus of corrective
actions had improved and that this issue may be resolved. However, in Fiscal Year 2012, the
Sandia Field Office identified continuing issues with external supplier management. In addition,
corrective actions developed for external supplier management issues were not always
completed. Specifically, our review identified that one critical corrective action was not taken
until we brought it to management's attention 2 years later. NNSA also acknowledged the
supplier management deficiency in its 2012 Performance Evaluation Report for SNL and
identified the issue as an opportunity for improvement.

                                     Impact on the Stockpile

CM information is the foundation upon which the NNSA surveillance program assesses the
current stockpile. Without it, NNSA loses confidence in its nuclear weapons stockpile
assessments and spends more resources on investigations of problematic components and LEPs.
In addition, recapturing the Department's original nuclear weapons data in a configurable format
can potentially save tens of millions of dollars. For example, LANL officials told us that they
saved between $17 and $50 million during the W76-1 pit recertification by recapturing original
pit data into a configurable format for recertification and reuse for the W76-1 LEP. In addition,
an October 2009 joint report issued by LANL and Lawrence Livermore National Laboratory
stated that not having NNSA original nuclear weapons data available is the primary impediment
to the stockpile surveillance transformation project. Further, unauthorized system access and
changes to weapons drawings, incomplete engineering authorizations and inadequate
assessments of vendor-supplied parts may ultimately increase costs and could negatively impact
the reliability and safety of U.S. nuclear weapons.
                                                6


Finally, the acceptance of nuclear weapons parts and components that do not meet specifications
has potential readiness, reliability, cost and timeliness implications. For example, in one case,
this situation resulted in a 1-year delay in component production and additional costs of
approximately $20 to $25 million. Further, inadequate reviews of commercial-off-the-shelf parts
led to NNSA having to recall several refurbished W76-1 weapons due to significant safety and
reliability concerns.

Because of the significance of these issues and the potential impact on stockpile reliability, we
made recommendations designed to improve NNSA's configuration management and its efforts
to prioritize planned weapons initiatives.

MANAGEMENT REACTION AND AUDITOR COMMENTS

Management concurred with the report's recommendations and stated that NNSA remains
vigilant in configuration management information for its nuclear weapons and components as
well as in supply chain management issues.

Management's proposed and initiated corrective actions are responsive to our findings and
recommendations. We appreciate management's commitment to effective configuration
management of nuclear weapons systems.


cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff
REPORT ON NATIONAL NUCLEAR SECURITY ADMINISTRATION
NUCLEAR WEAPONS SYSTEMS CONFIGURATION MANAGEMENT



TABLE OF
CONTENTS

Configuration Management for NNSA's Nuclear Weapons

Details of Finding ............................................................................................................................... 1

Recommendations and Management Reaction ................................................................................. 10

Auditor Comments ........................................................................................................................... 11


Appendices

1. Weapon System As-Built Product Definition Testing Results .................................................... 12

2. Objective, Scope and Methodology ..............................................................................................13

3. Prior Reports................................................................................................................................. 15

4. Management Comments ................................................................................................................16
NATIONAL NUCLEAR SECURITY ADMINISTRATION NUCLEAR
WEAPONS SYSTEMS CONFIGURATION MANAGEMENT

Configuration Management for NNSA's Nuclear Weapons Systems

In order for the National Nuclear Security Administration (NNSA) to accept a nuclear weapon or
component into the stockpile, officials must ensure that the weapon is "qualified." A major
component of that process is ensuring that the exact product definition version to which the
weapon was built has been developed and maintained. NNSA requires that this information be
maintained throughout the life of the weapon. Once a weapon or component is qualified, its
product definition is referred to as the "as-built" definition. 1 The as-built definition contains an
exact list, by version, of drawings, specifications, test data and other applicable documents used
in the acceptance of a weapon or component. This information is essential for the: (1)
recertification of aging weapons through Life Extension Programs (LEPs); (2) timely closure of
investigations on problematic components; and (3) the identification of aging defects of
components. In addition, NNSA's Technical Business Practices require that changes to weapon
designs be properly controlled, that any use of nonconforming weapon components be properly
authorized and documented, and verification reviews be performed to ensure weapon
components have achieved the respective performance and physical requirements. Inadequate
verification reviews could have significant consequences on the safety and reliability of nuclear
weapons.

                                 As-Built Product Definitions and Drawings

We were able to find the as-built product definitions and associated drawings for weapons
(serialized) that had been newly refurbished by NNSA. However, we were not always able to
find this information for the remaining weapons. Specifically, NNSA sites could not always
locate as-built product definitions or associated drawings for nuclear weapons in its records
repositories. Our testing of 36 judgmentally selected nuclear weapons in the current stockpile
determined that 14 (about 39 percent) of the as-built definitions could not be found in the Pantex
Plant's (Pantex) information management systems. The 36 serialized nuclear weapons we
reviewed represented different alterations to each of the 13 weapon systems in the current
stockpile, and as such, different as­built definitions (Appendix 1).

When we presented Pantex and Sandia National Laboratories (SNL) officials with the results of
our testing at Pantex, they proposed an alternate method for identifying the as-built definitions
using a combination of the NNSA's official record repository system, the Image Management
System and the Record of Assembly. This was not acceptable because it identified drawings that
were different than the original actual as-built product definition. In particular, our testing and
discussion with SNL and Sandia Field Office officials determined that the Image Management
System/Record of Assembly combination could not always be used to determine, with certainty,
which version of a drawing is the correct as-built drawing, and therefore, did not provide a
definitive as-built product definition.



1
 Also known as a product acceptance definition. As used in this report, the as-built definition should identify a
serialized weapon to the specific revisions or issues of drawings that were used in the production of that weapon.


Page 1                                                                                        Details of Finding
Although Pantex was able to locate as-built definitions for the remaining 22 sampled weapons,
subsequent testing to determine whether NNSA had records of the drawings disclosed that 13 of
the 22 (59 percent) remaining weapons had one or more missing drawings. Specifically, our
review, performed with the help of Pantex officials, could not always locate the drawings in the
multiple repository systems including the Image Management System. Many of the drawings
that could not be located were specifications, such as specifications for using detonator cable
assemblies in the weapon system. Pantex officials were concerned and surprised at the difficulty
in finding as­built product definitions for the nuclear weapons and took action to determine how
long it would take to develop the as-built product definition for three of the missing sample
items. Pantex reviewed three of the missing sample items and determined that it would take an
average of 40 hours to develop the product definition for each serialized weapon, which means
that it would take approximately 14 weeks to develop the as-built product definitions for all of
the missing sample items. However, because the original documented as-built product definition
could not be located, we could not confirm that the product definitions newly developed by
Pantex for three sampled items were the definitive as-built product definitions.

Similarly, NNSA could not always locate drawings for neutron generators, a key component of
nuclear weapons. Our test work at SNL, which is responsible for the neutron generators,
revealed that 16 (44 percent) of the neutron generators used in the 36 stockpile weapons that we
tested could not be located by searching the official NNSA records management repository
systems. According to SNL officials, the missing records could exist in other records
management information systems. However the ultimate retrieval of such drawings could be a
very time consuming process because the drawings were not located in the official repository
systems. Further, SNL officials were uncertain as to what the as-built definitions should be for
the neutron generators serialized parts used in the 36 stockpile weapons we tested. SNL officials
explained that they were uncertain about the completeness of the as-built definition because the
neutron generators were produced at a location which has since been closed. While most of the
neutron generators are nearing the end of the useful life and will likely be redesigned for
replacement, these items are part of the current stockpile. As such, configuration management is
required to be maintained for stockpile surveillance and other investigative needs.

Conversely, we performed similar testing at Los Alamos National Laboratory (LANL) and
determined that as-built definitions were easily identified using LANL's configuration
management (CM) system. Specifically, our testing of plutonium pits determined that 100
percent of the 24 sampled pits' as-built definitions could be located, along with all of the
drawings called out on the as-built definition. According to LANL officials, had we tried to
perform this test work prior to 2012, it would have taken approximately 2 years to locate this
information for the same 24 pits. In 2004, NNSA saw the importance of having CM information
available in a timely manner and identified an urgent need to pursue the electronic capture of
information to assure that legacy surveillance data will not be lost and can be effectively accessed
for stockpile assessment. As a result, NNSA developed the Surveillance Data Delivery project to
collect, digitize and associate all nuclear weapons CM information in a configurable format. The
project was funded under NNSA's Product Realization Integrated Digital Enterprise (PRIDE)
initiative. The purpose of PRIDE was to develop the methods of capturing the deteriorating
archive CM information before it degrades. While some initial digitization has been funded



Page 2                                                                         Details of Finding
under PRIDE (such as the pits at LANL), the work of capturing the substantial amount of
remaining CM information has not been fully funded. Senior NNSA management officials were
not aware of the deteriorating CM information identified in a Fiscal Year (FY) 2012 Surveillance
Data Delivery project report. When we brought it to their attention, they told us that they would
address the issue. Subsequently, a senior NNSA management official told us that all needed CM
information would be digitized within 3 years.

Although our testing at LANL identified as-built definitions in its CM system, we could not
locate the drawings in the official NNSA nuclear weapons record repositories indicating a
disjointed approach to management of nuclear weapons configuration information. NNSA
Stockpile Surveillance officials were not aware of the problems with the deteriorating CM
information.

         NNSA and Contractor Management: As-Built Product Definition and Drawings

Over the decades of nuclear weapons development, NNSA had not prioritized the maintenance of
original CM information for its nuclear weapons and components to ensure that a specific
serialized weapon or component could be associated with its as-built product definition from
cradle to grave. Specifically, NNSA had not scheduled the collection of CM information in
advance of weapons projects so that it could be available when needed. Instead, CM information
was collected as needed, resulting in a project management approach that was more reactive than
proactive, a practice that led to weapons project delays and increased costs.

In particular, NNSA did not collect information such as original test data until recertification of a
component was needed or surveillance activities required the information for analysis.
According to a 2010 Surveillance Enterprise Study completed by NNSA, stockpile surveillance
was predicated on having historical baseline data (CM information) to help develop Component
and Material Evaluation sampling requirements for trend analysis. However, the Study noted
that historical data was often found to be inadequate for this purpose due to configuration control
problems. According to the Study, the lack of relevant historical CM information that could be
compared against new Component and Material Evaluation test data could delay the
determination of whether an issue is age related. The Study further noted that many Component
and Material Evaluation results are based on limited data and test conditions, and hence have
significant caveats associated with these results.

However, during our review an NNSA official stated that they had determined an approach to
addressing the deficiencies with the decades-old nuclear weapons CM information. Specifically,
NNSA is prioritizing the original as-built product definition information and placing it into its
Image Management System to ensure that the most needed nuclear weapons data is digitized and
accessible for future needs. In its response to our draft report, NNSA stated that it plans to
upgrade the Image Management System to incorporate the association of product definition with
the serialized weapons systems and components that make up the nuclear weapons stockpile.
The Image Management System upgrade requirements and acquisition strategy will be
determined in FY 2015.




Page 3                                                                           Details of Finding
                                   Weapons Design Changes

The LANL CM system allowed changes to classified nuclear weapons drawings without an
approved change notice, a practice that could lead to unauthorized changes to the drawings.
According to NNSA requirements for the CM system in question, once a drawing is approved
and put into the "released" status, the drawing should be read-only and changes should only be
made with an approved change notice. A drawing in the released status means it has been
subjected to an extensive five-person documented review process and approved for nuclear
weapon production, making control of changes to the released drawings critical. Contrary to this
requirement, our review of the LANL CM system found that changes could be made to drawings
while in the released status without an approved change notice that authorized the changes. In
addition, the person responsible for ensuring that changes were not made before issuing the
drawing for nuclear weapon production was the same person that was capable of making the
changes without the change notice.

While LANL stated that changes to the released drawings are expressly prohibited, we identified
a drawing where changes were made that were not identified on the approved change notice.
Specifically, the CM system identified a released drawing (version J) for the W76-l Canned Sub-
Assembly was released three times without documenting the changes found in releases two and
three. In addition, because the changes were not documented on an approved change notice,
LANL officials could not explain why the changes occurred and could only assume that the
changes were needed. However, by making changes to released drawings after the drawings
have been extensively reviewed and approved, NNSA is at increased risk of unauthorized and
inappropriate changes to nuclear weapons design information.

             NNSA and Contractor Management: Changes to Weapons Drawings

Changes were made to design drawings without required review, approval and notice because,
contrary to Nuclear Security Enterprise Product Realization Standard, PDMLink Standard
Installation and Configuration, LANL gave nuclear weapons Computer Aided Design (CAD)
designers system access that allowed changes to any post-release drawing without a change
notice. Specifically, LANL granted approximately 30 CAD designers the ability to make
changes to drawings whether they were assigned to the project or not. For example, a W78
designer could access and change drawings to a W76-1 design, even when the designer was not
assigned to work on any W76-l weapon designs. This is also contrary to Department of Energy
Order 452.8, Control of Nuclear Weapons Data, which prohibits granting need-to-know access to
nuclear weapons drawings to organizations or functional groups. LANL told us, subsequent to
our review, that it had begun making changes to limit designers' access to specific projects and is
evaluating additional controls to mitigate the risk of unauthorized changes to released documents.

In contrast to LANL, our review of SNL's CM system disclosed that when SNL sends a drawing
through the approval process, the drawing is "read only" and changes cannot be made after
release. SNL CAD designers were not granted the same access LANL provided to make changes
to post release drawings. In addition, SNL assigned individuals, rather than groups, to products
in the CM system. This practice effectively decreased the risk of unauthorized changes to
nuclear weapons drawings.



Page 4                                                                         Details of Finding
When we presented this issue to a responsible Los Alamos Field Office official, the official
stated the Los Alamos Field Office was not aware of the issue and would have to investigate.
After investigating the issue, the Los Alamos Field Office official believed that LANL was
meeting the intent of the requirements. However, the official could not produce any evidence to
support this opinion. Not issuing a change notice when making changes to nuclear weapons
drawings and giving group need-to-know access to all weapons CAD designers could lead to
inadvertent or inappropriate changes. Subsequently, NNSA officials told us that, in this
particular case, the changes had been necessary to correct an error and that the final changed
drawing had been approved prior to release to the production site. Although the change may
have been necessary, its occurrence highlighted a breakdown in controls intended to prevent
unauthorized changes to weapons drawings.

                                 Nonconforming Weapon Parts

SNL and LANL did not always justify the use of nonconforming parts in nuclear weapons.
NNSA uses Specification Exception Releases (SXRs) to authorize the use of a product that does
not completely meet its specification. An SXR can only be used after an engineering evaluation
determines the product is suitable for use. The engineering evaluation is documented on the SXR
and provides the necessary technical justification for use of the part in a nuclear weapon.
DOE/NNSA Weapon Quality Policy (QC-1), superseded by NNSA Weapon Quality Policy (NAP-
24) requires that the technical justification is documented to ensure that all nonconforming parts
to be used in a nuclear weapon are appropriately justified.

Our review of the SXRs associated with the W76-l LEP determined that 19 of 30 (63 percent)
LANL SXRs we judgmentally sampled did not have the required technical justification. As such,
officials lacked assurance that the component was suitable for use in a nuclear weapon. At SNL,
7 of 46 (15 percent) judgmentally sampled SXRs did not have the required technical justification.

In addition, sites had not documented and we could not determine whether corrective actions for
nonconforming parts were planned and completed. Contractor sites are required to develop
corrective action plans to ensure that component deviations are addressed and do not become
repetitive. However, we found that LANL and SNL had not always developed and documented
corrective actions with completion dates and assigned individuals as required. NNSA's
Technical Business Practice 702, Nonconforming Parts, requires SXRs to have a corrective
action for the deviation, if needed. Further, the corrective action should state the expected or
actual completion date and the individual responsible for completing the corrective action. If no
corrective action is needed, the SXR should state the reason. Our review of the corrective actions
on the sampled SXRs at LANL determined that 9 of 11 SXRs (82 percent) for which no
corrective action was required, did not provide justification for why a corrective action was not
needed. Of the 13 SXRs that did have corrective actions, 5 (38 percent) did not have a person
assigned to close out the action, nor did 8 (62 percent) of the actions have an actual or estimated
closure date. In contrast, all of the SNL SXRs had corrective actions or stated a reason why no
corrective action was needed. However, SNL did not always identify a person to close out the
corrective action or provide an expected or actual completion date for 14 of 38 (37 percent)
sampled SXRs. Officials at SNL stated that they had identified problems with technical
justifications in 2009 and implemented corrections. In fact, our limited test work did not identify



Page 5                                                                         Details of Finding
technical justification problems at SNL after 2010. According to SNL, actions taken since 2009
may have contributed to better performance in documenting the technical justifications and
corrective actions. Specifically, SNL clarified the requirements for technical justification and
corrective action, modified the engineering authorization tool to make technical justification and
corrective action a required field, and developed training on what constitutes a good SXR.

Additionally, NNSA had not tracked implementation of corrective actions needed prior to using
nonconforming parts in weapons systems. QC-1 required that corrective actions be verified to
ensure there is no recurrence of the deficiencies that led to the nonconformance. According to an
NNSA official, it is almost impossible to know if a corrective action was verified as implemented
without a corrective action tracking system.

However, NNSA policies and procedures did not include a policy or procedure for closing out
SXRs to ensure the use of nonconforming parts are adequately addressed and do not recur. We
also found that, while not specifically required, NNSA sites had not been proactive in always
developing corrective action tracking systems for tracking and closing out SXRs. As a result, we
could not determine if a verification review was performed on the SXRs that required corrective
action and that the action was effective in precluding recurrence. When we discussed these
issues with LANL officials, they acknowledged the identified weaknesses and stated that the
current process does not provide for adequate technical justification and closure for SXR issues.
Further, LANL and NNSA also told us that this is an NNSA-wide issue and needs to be
addressed.

Finally, SNL had not always obtained required approvals from Nuclear Explosive Safety
Representatives before using nonconforming parts in nuclear weapons. Specifically, some
nuclear weapons parts are labeled Pentagon /S/, which signifies that the part is essential to the
nuclear explosive safety of the weapon system. A Pentagon /S/ part that has an SXR associated
with it requires the approval of the design agency Nuclear Explosive Safety Representative
before it can be used in a nuclear weapon. In a separate judgmental sample of 27 SXRs, we
found that 4 (14 percent) SXRs ranging from 2007 to 2012 did not have the required Nuclear
Explosive Safety Representative approvals. Although our Pentagon /S/ SXR sample was not a
statistical sample, the results indicate that there may be problems with the use of nonconforming
parts in nuclear weapons. Subsequent to our fieldwork, SNL stated it was aware of the issue with
the Pentagon /S/ SXR approvals and that it had plans to address this issue. However, similar to
other non-Pentagon /S/ SXRs, SNL had not documented and we could not determine whether
corrective actions had been taken and if such actions were effective in precluding recurrence.

             NNSA and Contractor Management: Specification Exception Releases

NNSA had not ensured that sites formally provide a technical justification and closure of
nonconforming parts. For example, LANL officials noted that they sometimes rely on
undocumented expert opinions in lieu of a formally documented technical justification. In
addition, many of the SXRs we reviewed noted only that an engineer from a specific organization
had stated the nonconformance did not affect form, fit and function and that the product was
approved for use in the weapon system, but did not provide the technical justification for such a
conclusion. The LANL officials further noted that the SXRs were likely approved without
technical justification because the LANL quality reviewers knew the engineers and relied on their


Page 6                                                                         Details of Finding
professional opinion. However, this method of doing business poses a risk for NNSA and its
contractors, as the engineer will not always be available to answer technical justification
questions if future problems are identified for the product. In addition, there is increased risk that
a nonconforming part would not function as intended because the engineering opinion was not
documented and there is no assurance that the nonconformance was subject to subsequent
independent review and approval. NNSA officials were unaware that LANL had not always
provided the technical justifications.

As previously discussed, NNSA does not have a formal process for tracking and closing out an
SXR. Our review of the NNSA Technical Business Practices identified that there is no policy or
procedure for closing out SXRs to ensure the use of nonconforming parts are adequately
addressed and do not recur. Finally, we found that NNSA sites do not always have a corrective
action tracking system for tracking and closing out SXRs.

                              External Supplier Nonconforming Parts

Certain externally supplied parts and components were not adequately verified to the proper
specifications in the product definition. Ultimately, these parts and components were found to
have unacceptable deviations and were subsequently used or made available for use in the
production of nuclear weapons. These part and component deviations had a negative impact on
the form, fit or function of the weapon systems. Specifically, our review identified multiple parts
and components that did not conform to specifications but were qualified for use by SNL and/or
Pantex in the development of the W76-l LEP. Technical Business Practice - CM requires that
physical requirements of a component be verified to the specifications (e.g., size, shape, density).
In addition, NNSA's QC-1 also requires that items and materials be evaluated to determine
conformance to applicable specifications, including when a product is procured from external
vendors.

Contrary to these requirements, NNSA contractors have not always adequately evaluated
products procured from suppliers for use in a nuclear weapon. Specifically, according to causal
analyses performed by SNL and Pantex, these two sites performed inadequate quality inspections
on vendor supplied parts to ensure that unqualified parts are not used in the production of nuclear
weapons. For example, in 2007, SNL was assigned as the integrated contractor for the
development of a tool for Pantex in support of the W76-l LEP. SNL manufactured several copies
of the tool to support six identical production lines at Pantex. Included in the tool were
commercial-off-the-shelf (COTS) pneumatic cylinders. Upon receipt of the cylinders from the
COTS vendor, SNL did not inspect them as required by its internal tooling qualification plan to
ensure they met the physical configuration requirements found in the product specification. As a
result, the fully produced tools were subsequently sent to Pantex with cylinders that did not meet
specifications. Likewise, Pantex did not adequately inspect all of the tools provided by SNL.
While Pantex had actually discovered the discrepant cylinders on three of the tool copies and
repaired the tools by installing the correct cylinders, it did not perform an extent of condition
evaluation, as required by QC-1. Had the extent of condition evaluation been performed, three
additional discrepant tools would have been identified and corrected prior to use.

Similarly, SNL qualified a vendor supplied part for use in a nuclear weapon that did not meet its
full specification. Specifically, SNL qualified production lot 4 of the MC4682 capacitor, a


Page 7                                                                           Details of Finding
component with nuclear safety features, for use in the W76-1 LEP. However, SNL found that a
subsequent lot 5 failed its performance specifications and was disqualified for use. SNL
determined that the cause of the failures was due to the parts not meeting manufacturing
specifications during the production of the capacitors. SNL physically re-examined the lot 4
capacitors and determined that many of the previously qualified capacitors did not meet its
manufacturing specifications and that these capacitors needed to be scrapped. If it had not been
for the failure of the lot 5 capacitors, all of the defective lot 4 capacitors likely would have been
used in the W76-l, resulting in a reliability concern for a component with nuclear safety features.
According to a subsequent internal review, Sandia had not sufficiently developed testing methods
to understand potential failures, and had not ensured that manufacturing processes were
completely understood and controlled to minimize potential assembly errors. Although none of
the scrapped capacitors were actually used in the production of the W76-1, this situation resulted
in component production to be delayed by 1 year and increased costs by approximately $20 to
$25 million.

                             Externally Supplied Parts Evaluations

NNSA contractors had not taken effective action to address weaknesses in supplier management
controls. Specifically, our review disclosed that SNL had not performed an internal quality
control assessment as required on its machine shops that produced the tools used in the
production of the W76-1 LEP until February 2007, nearly three months after the previously
discrepant tools had been delivered to Pantex. Although the assessment identified problems,
especially in regard to procurements from external suppliers, we could not determine whether
SNL took corrective actions for issues identified because the actions were not found in SNL's
Corrective Action Tracking System. In addition, we found that SNL did not complete a
corrective action identified during the tooling issue root cause analysis. Specifically, SNL had
developed a corrective action to revise procedures for its supplier quality management system as
a result of the W76-1 tooling issue. However, our review identified that the corrective action was
not taken until we brought it to management's attention 2 years later. NNSA acknowledged this
deficiency in its 2012 Performance Evaluation Report for SNL and identified the issue as an
opportunity for improvement.

Finally, we found that SNL had not taken effective action to address weaknesses in supplier
management controls. Specifically, our review of SNL's Performance Evaluation Reports
determined that while the Sandia Field Office had identified supplier quality management as an
opportunity for improvement since 2005, the actions taken by SNL were not fully effective in
making the needed improvements. In particular, NNSA officials told us that SNL corrective
actions focused on specific quality issues, rather than systemic or institutional issues.

Additionally, NNSA had not taken effective action to correct weaknesses in Pantex's supplier
management controls. Specifically, the Pantex Site Office had not identified a performance
measure regarding supplier management in the Pantex Performance Evaluation Reports despite
the contractor's failure to perform an extent of condition review of the nonconforming tools
supplied by SNL that were used in the W-76 LEP.




Page 8                                                                          Details of Finding
                                      Impact on the Stockpile

Not having complete and accurate CM information can have significant effects on surveillance
and safety, and can lead to time-consuming and expensive recovery efforts. CM information is
the foundation upon which surveillance assesses the current stockpile because it is the baseline
against which NNSA measures change during testing. Without it, NNSA loses confidence in its
assessments and spends more resources on LEPs and significant finding investigations, which are
performed to determine whether a nonconformance has an impact on the safety or reliability of a
weapon system. For example, a 2012 Surveillance Data Delivery report stated that a significant
finding investigation "was opened by LANL and remained open for 12 years because of lack of
data. If the data had been available in digital form on a searchable system, the effort would have
been less than three years." The report also stated, "The LEP process requires NNSA to go
through a study to determine which components to redesign and which to reuse or remanufacture.
Many of those decisions require original baseline data to make informed decisions on the
probability of being able to extend component lifetimes for additional decades."

Of additional importance is the fact that irreplaceable nuclear weapons CM information is
degrading. Specifically, film media and microfiche are being lost due to degradation, and
radiographs are beginning to stick together causing extensive damage and making the data
unrecoverable.

In addition, having complete and accurate CM information in a single authoritative source could
potentially save significant resources. For example, a LANL official stated that the Laboratory
was able to save an estimated $17 to $50 million during the W76-l pit recertification by using the
data that had been scanned and associated with serialized pits in PDMLink. The official also
noted that with this information, LANL was able to screen 50 pits per day, but without this
information it would have taken approximately 1.5 years to screen the 50 pits.

Regarding unauthorized changes, there is increased risk that weapons components may not fully
meet product specification, which ultimately could cause delays in production and increased
costs. In addition, bypassing individual access controls increases the risk that classified weapons
design information could be provided to those without a need-to-know. This practice allows for
the potential to make inadvertent or even inappropriate changes to nuclear weapons CAD
drawings without going through the review and approval process.

Due to the weaknesses with the SXRs, it will be difficult for engineers to determine why a
nonconforming product was released for use in a nuclear weapon during future surveillance
activities or LEPs. As such, they will have to spend more time closing out problem components
(such as resolving significant finding investigations) or recertifying components for LEPs.

Finally, the acceptance of nuclear weapons parts and components that do not meet specifications
has potential readiness, reliability, cost and timeliness implications. For example, in one case,
this situation resulted in a 1-year delay in component production and $20 to $25 million of
additional costs related to the W76-1 LEP due to the capacitor failures. In addition, not having a
fully implemented supplier quality management program can have devastating impacts on the
reliability and safety of our nuclear weapons. For example, due to problems during production of
the tool with the discrepant COTS cylinders, in 2010, 11 of 23 W76-l weapons that had been


Page 9                                                                         Details of Finding
delivered to the U.S. Department of the Navy were returned to NNSA. The W76-l weapons were
returned due to the discovery of dielectric material missing from a detonator cable assembly.
Dielectric material acts as a nonconductor to a direct electric current and is used to help ensure
that an electro-static discharge does not accidentally set off the main charge of the weapon.
Upon review of the returned weapons, it was discovered that the dielectric material had been
damaged during production due to the faulty tool.

RECOMMENDATIONS

To address the critical CM issues identified in our report, we recommend that the Administrator,
National Nuclear Security Administration ensure that Defense Programs:

   1. Completes initiated actions to prioritize, collect and digitize the original as-built nuclear
      weapons product definition information and continue to identify and implement options
      for associating this information with the serialized weapons systems and components;

   2. Ensure LANL implements existing requirements so that changes to CAD drawings are
      reviewed and approved prior to release and that need-to-know access is granted on an
      individual basis;

   3. Ensure SXRs contain fully documented technical justification and corrective actions
      before releasing components for use in a nuclear weapon;

   4. Establish a process for ensuring that SXR corrective actions are taken and are effective;

   5. Ensure that all components procured through external suppliers, including those procured
      through integrated contractor orders meet weapons quality requirements; and

   6. Ensure contractors are held accountable for correcting supplier quality issues.

MANAGEMENT REACTION

Management concurred with the report's recommendations and stated that it remains vigilant in
configuration management information for its nuclear weapons and components as well as in
supply chain management. Management recognized the need to upgrade Image Management
System and stated that the Image Management System upgrade will incorporate the association
of product definition with the serialized weapons and components that make up the nuclear
weapon stockpile. The Image Management System upgrade requirements continue to be
identified and an acquisition strategy will be determined in FY 2015. Management also stated
that NNSA will prepare a cross-complex data digitization plan by January 2015, to migrate all
non-electronic product definition into Image Management System. In addition, management
stated that an effectiveness evaluation will be performed by September 30, 2014, to ensure that
LANL has made the appropriate changes to its drawing release and need-to-know processes to
address our findings.

Regarding technical justification and corrective actions for SXRs, management stated that
documentation requirements already exist, but that NNSA and its contractors must increase

Page 10                                       Recommendations and Management Reaction
oversight of the SXR process to ensure the requirements are being accomplished. In addition,
NNSA will review the current SXR corrective action processes used by various sites to determine
the most effective process and direct implementation across the enterprise. Quality assurance
surveys and inspections procedures will incorporate checks to ensure updated processes are
effective and followed at each site. A target completion date for verification is March 2015.

Regarding components procured through external suppliers, management noted that full
implementation of NNSA's Weapon Quality Policy Letter is expected to be completed by
July 31, 2014, and that NNSA will be looking for improved effectiveness for the external
suppliers through the Contractor Assurance and Federal oversight processes. Additional NNSA
review and validation actions may extend into FY 2016. Finally, management stated that NNSA
will place additional emphasis on oversight of contractors' supplier management programs in
order to hold them accountable for meeting requirements and correcting implementation issues.

AUDITOR COMMENTS

Management's proposed and initiated corrective actions are responsive to our findings and
recommendations. We appreciate management's commitment to effective configuration
management of nuclear weapons systems.

Management's comments are included in Appendix 4.




Page 11                                                                    Auditor Comments
Appendix 1

       WEAPON SYSTEM AS-BUILT PRODUCT DEFINITION TESTING RESULTS

                   Weapons Serial As-Built   All Support Drawings
                   System  Number Definition Found?
                                  Found?
             1       B61-3      536778      NO
             2       B61-3      901659      YES                  YES
             3       B61-3      466760      YES                  YES
             4       B61 -4     999165      NO
             5       B61-4      411546      NO
             6       B61 -4     735690      NO
             7       B61 -7      84811      NO
             8       B6 1-7      70141      NO
             9       B6 1-7      64124      YES                  YES
             10      B61-10     150646      NO
             11      B61-10     848372      NO
             12      B61-10     933680      NO
             13      B61-l l     99140      YES                  YES
             14      B61-ll      21723      YES                  YES
             15      B61-ll      64114      YES                  YES
             16      B83-0      712808      YES                  NO
             17      B83-0      755591      YES                  NO
             18      B83-0      601152      YES                  NO
             19      B83-1      940690      NO
             20      B83-l      793465      NO
             21      B83-1      106116      YES                  YES
             22      W76-0      106964      YES                  NO
             23      W76-0      345073      YES                  NO
             24      W76-0      976692      YES                  NO
             25      W76-1      157870      YES                  YES
             26       W78       214701      YES                  NO
             27       W78       666274      YES                  NO
             28       W78       205822      YES                  NO
             29      W80-1      519075      NO
             30      W80-1      127181      YES                  NO
             31      W80-1      177623      YES                  NO
             32       W87       965544      NO
             33       W87       149397      NO
             34       W87       280423      YES                  YES
             35       W88       104072      YES                  NO
             36       W88       141637      YES                  NO
                    Total Not
                     Found                14 (39%)             13 (59%)




Note: We tested three alterations (each represented by a different serial number) for each weapon
system with the exception of the W76-1 and W88, as each only had one and two alterations
respectively. Upon altering a weapon system, its "as-built" definition will change.




Page 12                                                                        Testing Results
Appendix 2

                         OBJECTIVE, SCOPE AND METHODOLOGY
OBJECTIVE
The objective of our audit was to determine whether the National Nuclear Security Administration
(NNSA) has maintained accurate and complete configuration management information for nuclear
weapons to support safe, sound and timely decisions.
SCOPE
The audit was conducted between April 2012 and March 2014, at Sandia National Laboratories
(SNL) and the NNSA Albuquerque Complex in Albuquerque, New Mexico; Los Alamos National
Laboratory (LANL) in Los Alamos, New Mexico; the Pantex Plant (Pantex) in Amarillo, Texas;
and NNSA Headquarters in Washington, DC. The audit was conducted under Office of Inspector
General Project Number A12AL024.
METHODOLOGY
To accomplish our audit objective, we:

   •   Reviewed all applicable Public Laws, Department of Energy (Department) Orders, and
       other Department guidance and contracts.

   •   Examined prior Office of Inspector General and U.S. Government Accountability Office
       reports.

   •   Identified and reviewed configuration management information for current stockpile
       nuclear weapons and components.

   •   Interviewed key NNSA personnel at SNL, LANL, Pantex and NNSA Headquarters.

   •   Selected a judgmental sample based on 3 weapon configurations from each of the 13
       weapons system in the current stockpile, using the NNSA Weapons Information System to
       determine whether the weapons' product definitions were complete. Because the W76-1
       had only 1 configuration and the W88 had only two configurations, our sample included 36
       of a classified number of serialized nuclear weapons in the current stockpile. A non-
       statistical sample was chosen to ensure that all selected items had different product
       definitions. Because selection was based on a judgmental or non­statistical sample, results
       and overall conclusions are limited to the items tested and cannot be projected to the entire
       population of universe of weapons subject to audit.

   •   Selected a judgmental sample of 77 of 2,703 SNL and LANL Specification Exception
       Releases (SXRs) for the W76-1 weapon to determine whether the SXRs included technical
       justification, corrective actions and verification reviews. Although the sample was selected
       using a random number generator, the extensive number of duplicates in the sample
       universe resulted in a non-statistical sample. Because selection was based on a




Page 13                                                    Objective, Scope and Methodology
Appendix 2 (continued)

       judgmental or non-statistical sample, results and overall conclusions are limited to the
       items tested and cannot be projected to the entire population of the universe of weapons
       subject to audit.

We conducted this performance audit in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our audit
findings and conclusions based on our audit objective. The audit included tests of internal controls
and compliance with laws and requirements to the extent necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. Also, we reviewed the GPRA
Modernization Act of 2010 as they relate to configuration management. Our review did not
identity performance measures specifically related to configuration management. Finally, we did
not rely on computer-processed data to satisfy our objectives.

NNSA waived an exit conference.




Page 14                                                    Objective, Scope and Methodology
Appendix 3

                                     PRIOR REPORTS

•   Summary on Issues Relating to the Production of Components for the W76 Weapon
    System at Sandia National Laboratory - New Mexico (S06IS038, November 2008).
    The Office of Inspector General received an anonymous letter alleging serious problems
    with regard to the sourcing, fabrication and qualification of certain W76 components. We
    determined that in April 2001, after disagreements between Sandia National Laboratories
    (SNL) and the existing supplier over production costs, SNL competed the production
    contracts for these components. The 2001 contract transition by SNL shifted the
    production from a supplier that had successfully produced the components to a new
    supplier that had no experience producing these particular War Reserve components.
    This action was taken even though there was only one production build left, resulting in
    substantial additional costs. In addition, we found that there were problems with the
    execution of established policies and procedures in the procurement, contract
    management and quality assurance processes associated with SNL and the new supplier.
    Taken together, these issues raised questions about the overall effectiveness of SNL's
    quality management system for nuclear weapons products.

•   Audit Report on The Department's Configuration Management of Non-Financial
    Systems (OAS-M-12-02, February 2012). We found that the Department of Energy
    (Department) had not implemented sufficient controls over its configuration management
    processes for non-financial systems. Organizations and sites reviews had not always
    followed effective procedures to ensure that changes to systems and applications were
    properly tested and approved prior to implementation. Specifically, changes to non-
    financial information systems and applications at six organizations and sites reviewed
    were not always properly approved, tested or evaluated for security risks prior to their
    implementation. An effective change control process is necessary to ensure that only
    authorized changes are made to the system and that the integrity and security of the
    system remains intact. The change control weaknesses we identified occurred because
    procedures were not always adequate for addressing approval, testing or evaluation for
    security risk prior to implementation. While the change control procedures at certain
    Department organizations addressed the development and execution of testing plans,
    others did not.

•   Audit Report on Follow-up Audit of the Stockpile Surveillance Program (OAS-L-12-10,
    September 2012). We noted that although the National Nuclear Security Administration
    (NNSA) mitigated transition challenges related to the Surveillance Transformation
    Project, it had not established an effective system of performance measurement over the
    Enhanced Surveillance subprogram. Specifically, NNSA measured performance
    according to the percentage of budget spent rather than on actual program
    accomplishments. After discussing our performance measurement concerns with NNSA
    officials, NNSA replaced the measure with one that more accurately reflects performance.




Page 15                                                                          Prior Reports
Appendix 4

             MANAGEMENT COMMENTS




Page 16                            Management Comments
Appendix 4 (continued)




Page 17                  Management Comments
Appendix 4 (continued)




Page 18                  Management Comments
                                                                    IG Report No. DOE/IG-0902

                           CUSTOMER RESPONSE FORM

 The Office of Inspector General has a continuing interest in improving the usefulness of its
 products. We wish to make our reports as responsive as possible to our customers'
 requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
 of this form, you may suggest improvements to enhance the effectiveness of future reports.
 Please include answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
  The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
                         through the Internet at the following address:

            U.S. Department of Energy Office of Inspector General Home Page

                                     http://energy.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form.
